No. 21-53

IN THE

SUPREME COURT OF THE UNITED STATES

JAMES DALE HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

PETITIONER’S REPLY TO BRIEF IN
OPPOSITION

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

ii
A. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . ii

B.

1.

Table of Contents . . . . . . . . . . . . . . . . . ii

2.

Table of Cited Authorities . . . . . . . . . iii

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . 1

iii
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Cates v. Superintendent,
981 F.2d 949 (7th Cir. 1992) . . . . . . . . . . . . . . 9
Hoffman v. Leeke,
903 F.2d 280 (4th Cir. 1990) . . . . . . . . . . . . . 10
Holcombe v. State,
312 So. 3d 132 (Fla. 5th DCA 2020). 6, 8-9, 11
Holloway v. Arkansas, 435 U.S. 475 (1978) . . . 12, 14
People v. Solomon,
980 N.E.2d 505 (N.Y. 2012) . . . . . . . . . . . 6-11
Ross v. Heyne, 638 F.2d 979 (7th Cir. 1980) . . . . 9-10
Ruffin v. Kemp,
767 F.2d 748 (11th Cir. 1985) . . . . . . . . . . . . 10
Thomas v. State, 551 S.E.2d 254 (S.C. 2001) . . . 9, 14

b.

Other

U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . passim

1
B. ARGUMENT
As explained in the Petitioner’s certiorari
petition, during the trial, the Petitioner’s attorneys
represented both the Petitioner and State witnesses
William Hooper and Matthew Angell. In its brief in
opposition, the State of Florida (hereinafter “the
State”) relies extensively on the pretrial hearing that
was held on January 8, 2018, and the trial court’s
colloquy with the Petitioner and Messrs. Hooper and
Angell that occurred during that hearing.

But as

explained in the certiorari petition, when the trial
court conducted this colloquy with the Petitioner,
Messrs. Hooper and Angell were still codefendants with
the Petitioner. It was not until July 26, 2018, that it
was announced on the record that Messrs. Hooper and
Angell would enter pleas and not proceed to trial with
the Petitioner. And undersigned counsel again notes

2
that it was the prosecutor – at the beginning of the
August 2018 trial – who brought the conflict to the
trial court’s attention. The record is clear that at the
time of trial, the prosecutor believed that the attorneys
had a conflict of interest in representing both the
Petitioner and State witnesses Hooper and Angell:
THE COURT: All right. Good
deal. And then what –
Okay. So I think the State is still
concerned about any potential possible
conflict –
MS. SAMMON [the prosecutor]:
Yes, Your Honor.
THE COURT: – with the other two
fellas?
MS. SAMMON: Yes, Your Honor.
Two of the co-defendants also
represented by Mr. Delgado and his firm
in this case are testifying on behalf of the
State.
And so the issue is Mr. Delgado, or
his co-counsel, cross examining their
current client in representation of their
current clients on trial in this case.

3
THE COURT: But how are – and
is that Hooper and Angell?
MS. SAMMON: Matthew Angell,
yes, Your Honor.
THE COURT: How are they – are
they – is it to their detriment? I mean,
they’ve already entered a plea. They just
haven’t been sentenced yet.
MS. SAMMON: Yes, Your Honor.
Your Honor put off sentencing until after
both defendants testified at trial and
basically determine whether or not they
were cooperative and testified truthfully
for the State.
Therefore, it’s in their best interest
to cooperate and testify truthfully in
order to benefit from the plea discussions
that the defendants and their counsel had
with Your Honor during the time of their
plea.
Their testimony will provide
evidence for the State against the
defendants. And, therefore, in order to
represent his clients, Dale Holcombe and
James Holcombe, Mr. Delgado will have
to, in the State’s position, cross-examine
his current clients that he’s representing
which would be Matthew Angell and

4
William Hooper.
....
. . . The circumstances have now
changed. Two of the defendants have
entered a plea agreement – or has entered
their pleas open pleas to the bench and are
now witnesses for the State.
Circumstances now are much
different than they were. There is a
greater conflict that exists, one that the
State’s position is not waiveable.
(PA-32-35)1 (emphasis added).

The prosecutor’s

arguments at the beginning of the trial were correct.
As explained by the prosecutor, the circumstances
changed from the January 8, 2018, hearing (when the
trial court conducted the colloquy with the Petitioner
and Messrs. Hooper and Angell) to the August 2018
trial: by the time of the trial, Messrs. Hooper and
Angell were no longer codefendants – they were
References to the documents in the appendix to the
Petitioner’s certiorari petition will be made by the
designation “PA” followed by the appropriate page number.
1

5
prosecution witnesses.2
Regarding the first question presented in the
certiorari petition,3 the Petitioner continues to assert
that there is a split of authority as to whether an
attorney’s “joint and dual” representation amounts to

Contrary to the State’s contention that the
Petitioner “waived” this claim in his state appellate court
briefs, see Brief in Opp., p. 16, a review of the Petitioner’s
briefs establishes that the Petitioner clearly argued to the
state appellate court that his trial attorneys had an “actual
conflict of interest” at trial because counsel simultaneously
represented both the Petitioner and the prosecution
witnesses during the trial – which restricted counsel during
cross-examination of the prosecution witnesses.
2

The first question presented in this case is whether
a criminal defendant establishes an “actual” conflict of
interest that adversely affects counsel’s representation
when the attorney engages in “joint and dual”
representation – i.e., simultaneously representing both the
defendant and a key prosecution witness during a trial. In
its brief in opposition, the State asserts that “Petitioner
Can Prevail Only If this Court Also Decides His Second
Question Presented.” Brief in Opp., p. 29. The State is
incorrect – the Petitioner will prevail on the merits if the
Court agrees that simultaneous representation at trial of a
defendant and a prosecution witness establishes an “actual”
conflict of interest that adversely affects counsel’s
representation.
3

6
an “actual” conflict of interest that adversely affects
counsel’s representation. In its decision below, the
state appellate court held:
Appellant merely asserts that there was
an “actual conflict” because defense
counsel represented Appellant as well as
Angell and Hooper during the trial. He
emphasizes that defense counsel
cross-examined Angell and Hooper, whom
counsel still represented. However, such
facts do not, without more, constitute an
actual conflict for Sixth Amendment
purposes.
Holcombe v. State, 312 So. 3d 132, 134 (Fla. 5th DCA
2020) (emphasis added).

And as explained in the

certiorari petition, in People v. Solomon, 980 N.E.2d
505, 508-509 (N.Y. 2012), the Court of Appeals of New
York held that simultaneous representation of both a
defendant and a key prosecution witness during a trial
amounts to an “actual” conflict of interest:
There was an actual conflict of interest
between defendant and Kuebler here.

7
Kuebler testified that defendant had
confessed to raping his daughter. It was
very much in defendant’s interest either
to discredit that testimony or to show
that the confession had been obtained by
some unlawful or unfair means; Kuebler’s
interest was the opposite. . . .
The People argue, and the
Appellate Division held, that reversal is
not necessary because defendant has not
shown that the conflict “affected the
conduct of the defense.” Nothing in the
record, the People say, proves that
counsel was less effective in
cross-examining Kuebler than she would
have been had Kuebler not been her
client. We assume that this is correct; it
seems from the transcript that the
cross-examination was competently
performed. Defendant now suggests a
number of lines of inquiry that counsel
might have pursued, but did not. Such
after-the-fact suggestions, however, can
probably be made about almost every
significant cross-examination in almost
every case.
But we have never held, and
decline now to hold, that the
simultaneous representation of clients
whose interests actually conflict can be
overlooked so long as it seems that the
lawyer did a good job. Our cases, and the
United States Supreme Court’s, make
clear that, where such an actual conflict

8
exists and is not waived, the defendant
has been deprived of the effective
assistance of counsel.
(Citations omitted).4 In its brief in opposition, the

4

In Solomon, the court stated:

Sometimes there will be no actual conflict
between the defendant and a prosecution
witness – for example, where the witness
testifies only about a trivial or
uncontroversial issue, or where the witness,
testifying reluctantly for the People, really
wants the defendant to be acquitted. More
typically, however, a prosecution witness’s
interest will actually conflict with the
defendant’s. In such cases, we have held
t hat t h e s a m e a t t o r n e y canno t
simultaneously represent both, unless the
conflict is validly waived.
Solomon, 980 N.E.2d at 508 (citations omitted). And
contrary to the State’s argument in its brief in opposition,
see Brief in Opp., p. 21, the opinion below establishes that
Messrs. Hooper and Angell did not merely testify about
trivial or uncontroversial issues:
During the trial, the State called
numerous witnesses – including Angell and
Hooper – who testified about their
interactions with the customers, Appellant’s
role in the business, how often Appellant was
present at the business, and the policies

9
State concedes that there is a conflict between the
decision below and Solomon. ” See Brief in Opp., p. 20
(“Arguably, this language [in Solomon] could be in
conflict with Holcombe to the extent that the court
believed the adequacy of or effect on counsel’s
representation was irrelevant . . . .”). By granting the
certiorari petition in the instant case, the Court will
have the opportunity to resolve this split in authority.5

enacted by Appellant.
Holcombe, 312 So. 3d at 133.
As explained in the certiorari petition, the opinion
below is in conflict with numerous state and federal courts
decisions finding that the simultaneous representation of
both a defendant and a prosecution witness during a trial
amounts to an “actual” conflict of interest. See Thomas v.
State, 551 S.E.2d 254, 256 (S.C. 2001) (“In this case, an
actual conflict of interest arose when the solicitor offered a
plea bargain that would allow the charge against one
spouse to be dismissed if the other spouse would plead
guilty to the entire amount of the cocaine.”); Cates v.
Superintendent, 981 F.2d 949, 955 (7th Cir. 1992)
(“[N]egotiating a plea agreement for one client with a
condition that he testify against another creates an actual
conflict of interest.”); Ross v. Heyne, 638 F.2d 979, 983 (7th
5

10
In its brief in opposition, the State contends that
the attorneys’ conflict in the Petitioner’s case did not
adversely affect the Petitioner. But as explained by
the Court of Appeals of New York in Solomon:
[W]e have never held, and decline
now to hold, that the simultaneous
representation of clients whose interests
actually conflict can be overlooked so long
as it seems that the lawyer did a good job.
Our cases, and the United States Supreme
Court’s, make clear that, where such an
actual conflict exists and is not waived,
the defendant has been deprived of the

Cir. 1980) (“A conflict of interest would also exist where one
attorney represents co-defendants and one defendant
agrees to provide evidence against the other in return for an
advantageous plea bargain.”); Ruffin v. Kemp, 767 F.2d 748
(11th Cir. 1985) (holding that an attorney who had been
appointed to represent codefendants and who attempted to
arrange for plea bargain whereby one of them would be
guilty and testify against the other labored under actual
conflict of interest); Hoffman v. Leeke, 903 F.2d 280 (4th
Cir. 1990) (holding that defense counsel’s joint
representation of defendant and codefendant created an
actual conflict of interest where counsel advised
codefendant to enter into plea bargain which required
codefendant to implicate defendant at trial).

11
effective assistance of counsel.
Solomon, 980 N.E.2d at 509 (emphasis added). This
holding is clearly in conflict with the following
language from the opinion below:
Here, Appellant does not point to,
nor does the record reflect, any adverse
performance on the part of defense
counsel. Appellant merely asserts that
there was an “actual conflict” because
defense counsel represented Appellant as
well as Angell and Hooper during the
trial.
He emphasizes that defense
counsel cross-examined Angell and
Hooper, whom counsel still represented.
However, such facts do not, without more,
constitute an actual conflict for Sixth
Amendment purposes.
Holcombe, 312 So. 3d at 134 (emphasis added). This
clear split of authority regarding whether the
simultaneous representation of clients whose interests
actually conflict amounts to an “actual” conflict – and
whether such representation adversely affects counsel’s
performance – should be resolved by the Court before

12
the split of authority widens even more.
Regarding the second question presented in the
certiorari petition,6 the Petitioner continues to assert
that it is irrelevant as to whether it is defense counsel,
the defendant, or the prosecution who notifies the trial
court of an attorney conflict – the question is simply
whether “the trial court knows or reasonably should
know that a particular conflict exists.” Holloway v.
Arkansas, 435 U.S. 475, 485 (1978). In the instant
case, it was the prosecutor who objected and asked the
trial court to inquire into the conflict – a conflict that
the prosecutor described as “not waiveable” because it

The second question presented in this case is
whether the “presumed prejudice” conflict of interest
standard applies when the prosecutor (rather than defense
counsel) puts the trial judge on notice at the beginning of a
trial of defense counsel’s conflict of interest – a conflict
which is described by the prosecutor as “not waiveable” –
and the judge thereafter fails to inquire into the nature and
scope of the conflict.
6

13
had

changed

from

a

potential

conflict

(i.e.,

representation of the Petitioner and his similarlysituated codefendants) to an actual conflict (i.e.,
representation of the Petitioner and two of the
prosecution’s key witnesses at trial). (PA-32-35). Yet,
despite being put on notice of the conflict in this case,
the trial court failed to conduct a proper inquiry: (1)
the trial court failed to inquire into the nature and
scope of the conflict – a conflict which was different
than the one previously addressed by the trial court
during the January 2018 pretrial hearing (i.e., a
hearing that was conducted before Messrs. Hooper and
Angell became prosecution witnesses)7 – and (2) the

As stated above, although the trial court conducted
a pretrial inquiry with the Petitioner in January of 2018
(when the Petitioner and Messrs. Hooper and Angell were
all similarly-situated codefendants), a new inquiry was
required after Messrs. Hooper and Angell entered into plea
agreements with the State and agreed to become
prosecution witnesses against the Petitioner. See, e.g.,
7

14
trial court failed to inform the Petitioner of his right to
proceed with conflict-free counsel. (PA-36). Pursuant
to Holloway, if there is a credible indication of an
actual conflict of interest before trial, a trial court has
a duty to inquire. By granting the petition for writ of
certiorari in the instant case, the Court will have the
opportunity to consider this important question.
Accordingly, the Petitioner submits that it is
necessary for the Court to again address the standard
for resolving Sixth Amendment conflict of interest
claims and to provide clarity regarding how the
standard

applies

representation cases.

to

multiple/simultaneous

The Petitioner’s case is the

appropriate case for the Court to address this matter –

Thomas, 551 S.E.2d at 256 (“Although petitioner initially
waived a conflict of interest, once it became clear an actual
conflict existed due to the plea bargain, counsel should have
either withdrawn from representing one or both of them or
acquired another waiver covering this specific conflict.”).

15
the Petitioner’s attorneys simultaneously represented
both him and two prosecution witnesses at trial. For all
of the reasons set forth above and contained in the
certiorari petition, the Petitioner prays the Court to
grant certiorari in this case.
Respectfully Submitted,
MICHAEL UFFERMAN
COUNSEL FOR THE PETITIONER

